TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Annual Assessment of the
                   Business Systems Modernization Program



                                           June 24, 2008

                              Reference Number: 2008-20-129




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   June 24, 2008


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Annual Assessment of the Business Systems
                               Modernization Program (Audit # 200820005)

 This report presents the results of our annual assessment of the Business Systems Modernization
 (Modernization) Program. The overall objective of this review was to assess the progress of the
 Internal Revenue Service’s (IRS) Modernization Program for Fiscal Year 2008, as required by
 the IRS Restructuring and Reform Act of 1998.1

 Impact on the Taxpayer
 The Modernization Program, which began in 1999, is a complex effort to modernize the IRS’
 technology and related business processes. This effort involves integrating thousands of
 hardware and software components and must be done while replacing outdated technology and
 maintaining the current tax system. The IRS has achieved some successes in addressing these
 crucial challenges, but it still must overcome significant barriers to manage the inherent risks of
 modernization and deliver a level of service American taxpayers expect.

 Synopsis
 In December 1998, the IRS hired the Computer Sciences Corporation as its PRIME contractor2
 for the Modernization Program. The IRS originally relied on the PRIME contractor to act as a
 systems integrator to find and manage the best expertise and technical resources to achieve its
 organizational goals. In January 2005, due to budget reductions and concerns about the

 1
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 2
   See Appendix IX for a glossary of terms.
                                    Annual Assessment of the
                             Business Systems Modernization Program



adequacy of the PRIME contractor’s performance, the IRS began transitioning many activities
from the PRIME contractor and taking over the primary role as the systems integrator for all
projects.
The IRS originally estimated that the Modernization Program would last up to 15 years and incur
contractor costs of approximately $8 billion. According to the IRS’ original plan, the Program
would be past the halfway point by Calendar Year 2008. The Program is in its 10th year and has
received approximately $2.5 billion for contractor services, plus an additional $310 million for
internal IRS costs. The IRS plans to spend $267 million on the Program in Fiscal Year 2008.
The IRS has achieved successes when the Modernization Program followed its systems
development and management guidance. The Program has progressed more effectively with the
implementation of the Enterprise Services organization’s management components, and with the
development of the Information Technology Modernization Vision and Strategy as a map for
future development. However, the IRS and its contractors must overcome significant barriers in
successfully implementing the goals of the Modernization Program. The Program and processes
have not progressed enough to eliminate its material weakness designation, and further
reductions in funding could jeopardize the Program’s ability to deliver planned improvements.

Response
The Chief Information Officer responded that the IRS was pleased the annual assessment
recognized the progress in implementing Modernization projects, validating improvements in
contracting procedures affecting the Modernization Program, and documenting work to
institutionalize the Information Technology Modernization Vision and Strategy. The Chief
Information Officer also stated that the IRS has taken additional steps to improve Modernization
Program performance including development of strategies to confront risks and issues to future
system releases, efforts to address human capital challenges and succession planning, and
development and implementation of a methodology for quantitatively measuring and reporting
on project scope. The Chief Information Officer stated that he appreciated our continued support
and the valuable assistance and guidance the audit team provides. Management’s complete
response to the draft report is included as Appendix X.
Copies of this report are also being sent to the IRS managers affected by the report. Please
contact me at (202) 622-6510 if you have questions or Preston B. Benoit, Acting Assistant
Inspector General for Audit (Information Systems Programs), at (202) 622-5894.




                                                                                               2
                                               Annual Assessment of the
                                        Business Systems Modernization Program




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Modernization Program Continues to Achieve Success........................Page 3
          Significant Barriers Continue to Challenge the Successful
          Completion of the Modernization Program ..................................................Page 7

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Enterprise Life Cycle Overview ..........................................Page 16
          Appendix V – Modernization Program Funding ..........................................Page 20
          Appendix VI – Project Cost and Schedule Variance Analysis .....................Page 25
          Appendix VII – Open Recommendations Related to Modernization
          Program Material Weaknesses......................................................................Page 26
          Appendix VIII – Recent Treasury Inspector General for Tax
          Administration Reports on the Internal Revenue Service’s
          Modernization Program ................................................................................Page 30
          Appendix IX – Glossary of Terms................................................................Page 44
          Appendix X – Management’s Response to the Draft Report .......................Page 47
                Annual Assessment of the
         Business Systems Modernization Program




                Abbreviations

CADE     Customer Account Data Engine
CIO      Chief Information Officer
e-File   Electronic filing
IRS      Internal Revenue Service
MITS     Modernization and Information Technology Services
TIGTA    Treasury Inspector General for Tax Administration
                                          Annual Assessment of the
                                   Business Systems Modernization Program




                                             Background

The Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the
Treasury Inspector General for Tax Administration (TIGTA) to annually evaluate the adequacy
and security of IRS information technology. This report provides our assessment of the IRS
Business Systems Modernization (Modernization) Program for Fiscal Year 2008.
The Modernization Program, which began in 1999, is a complex effort to modernize the IRS’
technology and related business processes. This effort involves integrating thousands of
hardware and software components. All of this is being done while replacing outdated
technology and maintaining the current tax system.
In December 1998, the IRS hired the Computer Sciences Corporation as its PRIME contractor2
for the Modernization Program. The IRS originally relied on the PRIME contractor to act as a
systems integrator to find and manage the best expertise and technical resources to achieve the
IRS’ organizational goals. In January 2005, due to budget reductions and concerns about the
adequacy of the PRIME contractor’s performance, the IRS began transitioning many activities
from the PRIME contractor and taking over the primary role as the systems integrator for all
projects. The systems integrator role is a significant operational change for the IRS, requiring
new procedures, personnel, and offices. The IRS has successfully taken the first steps to
transition modernization activities away from the PRIME contractor and is taking additional
actions to build on these initial steps. For example, the IRS developed the Enterprise Transition
Strategy, which documents the overall strategy for realizing the vision and goals of the IRS. In
addition, the IRS has developed a Requirements Management Office and updated the Enterprise
Life Cycle Guide3 to include paths common to IRS modernization projects.
The IRS originally estimated that the Modernization Program effort would last up to 15 years
and incur contractor costs of approximately $8 billion. According to the IRS’ original plan, the
Program would be past the halfway point by Calendar
Year 2008. The Modernization Program is in its 10th year
                                                                 The IRS planned to complete
and has received approximately $2.5 billion for contractor        the Modernization Program
services, plus an additional $310 million for internal IRS           in 15 years at a cost of
costs. The IRS plans to spend $267 million on the Program in        approximately $8 billion.
Fiscal Year 2008. Appendix V presents an analysis of
Modernization Program funding since its inception.


1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix IX for a glossary of terms.
3
  Appendix IV presents an overview of the Enterprise Life Cycle.
                                                                                                              Page 1
                                           Annual Assessment of the
                                    Business Systems Modernization Program



The compilation of information for this report was conducted at the TIGTA office in
Laguna Niguel, California, during the period January through March 2008. The information
presented in this report is derived from TIGTA audit reports issued since July 2007,4 and the
Government Accountability Office report on the Modernization Program’s Fiscal Year 2008
Expenditure Plan.5 These previous audits and our limited analyses were conducted in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our conclusions based on our audit objective. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




4
    Appendix VIII presents the TIGTA reports used in formulating this Modernization Program assessment.
5
    Internal Revenue Service’s Fiscal Year 2008 Expenditure Plan (GAO-08-420, dated March 2008).
                                                                                                          Page 2
                                     Annual Assessment of the
                              Business Systems Modernization Program




                                 Results of Review

The Modernization Program Continues to Achieve Success
The IRS has continued to improve its abilities and processes that are critical to ultimately
achieving success in modernizing its business systems. Since July 2007, the IRS has
implemented further capabilities and provided improvements to
taxpayers and stakeholders. These successes include deploying             The Modernization
new releases for the Customer Account Data Engine (CADE),            Program has continued to
Modernized e-File, and Account Management Services projects.              deploy new project
The Modernization Program has also improved contract                  application   releases and
negotiations and management practices, assumed more                      improve   its program
                                                                             management.
responsibility for Program integration, expanded the
Information Technology Modernization Vision and Strategy,
and continued addressing organizational and Program concerns
through the Highest Priority Initiatives process.

Enhanced capabilities have been added to the CADE
The CADE will provide the foundation for managing taxpayer accounts to achieve the IRS
modernization vision. The CADE consists of databases and related applications that will replace
the existing IRS Master File processing systems, which are the official IRS repository of
taxpayer information. It is a critical building block in the IRS Modernization Program that will
enable the development of subsequent modernized systems to improve customer service and
compliance.
The IRS deployed CADE Release 2 for the 2007 Filing Season. Release 2 added the ability to
process U.S. Individual Income Tax Returns (Form 1040) that include Itemized Deductions
(Schedule A), Interest and Ordinary Dividends (Schedule B), and Credit for the Elderly or the
Disabled (Schedule R); the Head of Household filing status; and capabilities to handle the
Telephone Excise Tax Refund. Overall, increased volumes of tax return information were
accepted and posted accurately to CADE accounts during the 2007 Filing Season. The IRS
successfully posted approximately 11 million tax returns to the CADE and generated
approximately $11.6 billion in refunds from March through August 2007.
CADE Release 3 introduced additional capabilities for the 2008 Filing Season. It added the
ability to (1) generate notices to taxpayers about account adjustment activities due to
mathematical errors on the tax return, (2) split a taxpayer’s refund in any proportion and directly
deposit the funds among two or three different financial institution accounts, (3) update a
taxpayer’s account with an address change, and (4) process Child and Dependent Care
                                                                                             Page 3
                                             Annual Assessment of the
                                      Business Systems Modernization Program



Expenses (Form 2441) and the Earned Income Credit (Schedule EIC). The IRS reported that the
CADE had posted approximately 21.1 million returns and generated approximately $32.6 billion
in refunds as of March 28, 2008.

Additional tax returns have been added to the Modernized e-File project
The Modernization Program implemented Release 4 of its Modernized e-File project in
January 2007. Release 4 added the U.S. Return of Partnership Income (Form 1065) and the
U.S. Return of Income for Electing Large Partnerships (Form 1065-B) as well as Federal/State
Single Point Filing System access for partnership returns.
Modernized e-File Release 5 expanded electronic filing (e-File) for Calendar Year 2008 with the
ability to process U.S. Income Tax Return of a Foreign Corporation (1120-F). Release 5 also has
the ability to process the Annual Electronic Filing Requirement for Small Exempt Organizations
– Form 990-N (e-Postcard). The Pension Protection Act of 20066 requires charities with $25,000
or less in gross receipts to electronically file the new Form 990-N.

The first release of the Account Management Services system has been delivered
The first release of the Account Management Services system was deployed in October 2007.
This release supports instant address change capability in the CADE and enables faster notice
processing for taxpayers with mathematical errors on their tax returns.
The deployment of the Account Management Services system shows that the IRS can be
successful when it follows its systems development and management guidance. These successes
can generally be attributed to project teams implementing and adhering to Enterprise Life Cycle
guidelines. The Account Management Services system project team developed required
deliverables and work products, completed the detailed project release designs on time,
formulated a manageable scope and realistic completion dates, and in a timely manner completed
detailed release designs of a manageable scope.

Improvements have been made in contract negotiation and management
practices
The IRS has further enhanced the management and capabilities of the Modernization Program by
improving contract negotiation and management practices. Specifically, the Modernization and
Information Technology Services (MITS) organization and the Office of Procurement have
improved stakeholder involvement in pre-negotiation sessions and tracking pre-negotiation
issues, obtained independent Federal Government cost estimates, improved negotiation priorities
and strategies, and awarded task orders in a timely manner.



6
    Pub. L. 109–280, 120 Stat. 780.
                                                                                          Page 4
                                     Annual Assessment of the
                              Business Systems Modernization Program



Efforts of the Enterprise Services organization and implementation of the
Information Technology Modernization Vision and Strategy have contributed to
Modernization Program success
The Modernization Program has progressed more effectively with the Enterprise Services
organization assuming the role of Modernization Program integrator and with the development
of the Information Technology Modernization Vision and Strategy as a map for future
development.
The Enterprise Services organization provides services            The Enterprise Services
and functions that include both process and program            organization provides essential
areas such as governance, methodologies, requirements            cross-cutting services and
management, and planning for information technology               functions to support the
portfolio investment decisions, as well as technical areas           MITS organization.
such as the enterprise architecture, technical standards,
infrastructure, and systems engineering.
The Enterprise Services organization is divided into two component organizations. The Business
Integration organization provides integrated process architectures, solutions, services, and
standards at an enterprise level to enable business transformation. The Systems Integration
organization develops the architecture and infrastructure strategy and standards, which includes
providing engineering and architecture support to selected projects and supporting the business
and information technology infrastructure modernization objectives and projects.
The Business Integration organization’s Business Rules and Requirements Management office is
beginning to provide benefits to the Modernization Program. The Business Rules and
Requirements Management office’s mission is to provide the IRS with a quality requirements
baseline that reflects the needs of the business and its customers and results in the deployment of
solutions that meet those needs.
The Business Rules and Requirements Management
office’s core services focus on delivering business             The IRS created the Business
redesign, rules and requirements, and business solution      Rules Requirements Management
architecture products. It also provides Business             office to address the challenges of
                                                                 capturing and managing IRS
Analysis continuity throughout the Enterprise Life
                                                             business solutions requirements,
Cycle, with standards and practices providing the overall     and aligning those requirements
foundation for all services. The Business Rules and          with business strategy and needs.
Requirements Management office has benefited the
Modernization Program by:
   •   Working with the Modernized e-File project to implement a full bi-directional
       requirements traceability model. This helps the Modernized e-File project ensure that
       requirements are traceable to valid requirement numbers as directed by the Enterprise
       Life Cycle.

                                                                                            Page 5
                                     Annual Assessment of the
                              Business Systems Modernization Program



   •   Issuing in March 2007 a series of requirements development and management standards
       and guidance effective for modernization projects. Having better documented and
       stabilized requirements helps modernization projects plan and manage
       development-phase acquisitions.
   •   Working with the CADE project team to help negotiate a reasonable scope of work for
       future CADE development that considers the amount and difficulty of the work and the
       filing season time constraints. The requirements elicitation processes are helping
       improve scope estimation problems.
Over the past year, the IRS has also made advances in incorporating the Information Technology
Modernization Vision and Strategy into the framework of how it does business. The Information
Technology Modernization Vision and Strategy supports the fulfillment of the IRS mission and
strategic goals by establishing a 5-year plan that drives information technology investment
decisions based on priorities around modernizing front-line tax administration and supporting
technical infrastructure. The Information Technology Modernization Vision and Strategy
leverages existing systems and new development to build information technology capabilities,
optimize capacity, manage program costs, and deliver business value on an incremental and
frequent basis.
In its second year of implementing the Information Technology Modernization Vision and
Strategy, the IRS focused on expanding business scope and adding two new focus areas –
Internal Management and Security and Privacy. The focus
areas were further defined to address cross-cutting technical
                                                                The Information Technology
opportunities to deliver base products and services, such as      Modernization Vision and
end-user support, networks, and storage.                          Strategy is an important
                                                                      component of the IRS
In addition, the IRS established investment decision support             Strategic Plan.
services that provided an increased confidence level and
stakeholder engagement between the business operating
divisions and the MITS organization. The processes centered
on developing a well-defined business capability, designing a technical solution concept, and
estimating project life cycle and defining operational and maintenance costs.

The IRS is addressing program weaknesses and barriers through the Highest
Priority Initiatives process
IRS executives and managers used the Highest Priority Initiatives process to identify and seek
resolution for the most significant issues facing the Modernization Program. IRS executives and
senior managers are appointed to oversee the plans to resolve each of the Highest Priority
Initiatives, and progress is reported monthly. New initiatives are identified every 6 months. This
process is in its eighth 6-month cycle and was expanded to include initiatives affecting the entire


                                                                                            Page 6
                                            Annual Assessment of the
                                     Business Systems Modernization Program



MITS organization. From August 2005 to February 2008, the IRS resolved a total of 92 of the
identified Highest Priority Initiatives, with 42 items currently in process.
Improvements in the management of the Modernization Program have contributed to the IRS’
increased success in implementing modernization projects and in meeting cost and schedule
commitments for most deliverables. Specifically, as of March 2008, reported project costs and
completion dates showed that, since May 2007, 19 (95 percent) of the 20 associated project
milestones that were scheduled for completion were completed within 10 percent of cost
estimates, and 18 (90 percent) of the 20 milestones were delivered within 10 percent of schedule
estimates. See Appendix VI for detailed project cost and schedule variance analysis.

Significant Barriers Continue to Challenge the Successful Completion
of the Modernization Program
While steady progress and improvements have been made to the Modernization Program in the
past year, the IRS and its contractors must still overcome significant barriers in successfully
implementing Program goals. These barriers include:
      •    Continued reductions in funding that have forced the IRS to adjust the scope of the
           Modernization Program portfolio and project release schedules.
      •    Inconsistent adherence to established project development guidelines that has limited the
           effectiveness and growth of the Modernization Program.

Funding for the Modernization Program has generally decreased
As the Modernization Program has advanced, its funding has generally decreased. In Fiscal
Year 2000, the Program received $414 million for contractors, plus approximately $12 million
for internal IRS costs related to modernization. In Fiscal Year 2008, the Program will receive
$267 million, consisting of $222 million for contractors and $45 million for IRS labor costs. The
preliminary budget for Fiscal Year 2009 shows a reduction of 16.6 percent to $222.6 million,
consisting of $179.2 million for contractors and $43.4 million for IRS labor costs.7
Early in the Modernization Program, the IRS struggled to effectively manage a large portfolio of
projects. Due to weaknesses in systems development processes and management, modernization
projects were continually delivered late and over budget. This prompted both the TIGTA and the
Government Accountability Office to recommend reducing the scope of Modernization Program
efforts to enable more effective management. The IRS agreed and reduced the scope and pace of
the Program, which led to a significantly decreased modernization budget beginning in Fiscal
Year 2005. Although the Program has progressed, improved overall program management, and


7
    Appendix V presents an analysis of Modernization Program funding since its inception.
                                                                                                 Page 7
                                         Annual Assessment of the
                                  Business Systems Modernization Program



is looking to increase the scope of its projects, the budget to fund these projects has generally
decreased over the past several fiscal years. See Appendix V for more details.
Budget reductions have required Modernization Program management to continually adjust the
scope of the portfolio and modernization project release schedules. In some instances,
management has had to defer or even forgo project capabilities because sufficient funding was
not available. For example, funding shortfalls caused the IRS to forgo development of
significant capabilities for the Modernized e-File Integration project. These capabilities would
have allowed the IRS business operating divisions to better utilize the Modernized e-File system
for enforcement activities. Because the Modernized e-File system is not being used to the extent
originally planned, the intended benefits to the business operating divisions are not being
achieved. As a result of the data access limitations, the Large and Mid-Size Business Division
and the Tax Exempt and Government Entities Division are using their own systems to access
Modernized e-File filed tax return data.8
A second project, the Enterprise Return Retrieval system, was subsequently planned to deliver
the capabilities the Modernized e-File Integration project could not. However, this project was
not funded for Fiscal Year 2008.

Modernization Program system development and management processes are not
always implemented consistently
The Modernization Program could improve its effectiveness and efficiency through closer
adherence to established guidelines such as the Enterprise Life Cycle guidelines and its related
key processes, and the Federal Acquisition Regulation. Our audits found that the Modernization
Program did not consistently implement Enterprise Life Cycle guidelines, including project
management and requirements management activities.
Project management is the discipline applied to help ensure orderly and controlled initiation,
planning, execution, and implementation of a project. Effective project management includes
completing the requirements of the milestone processes and products before advancing through
the systems development life cycle. Project management processes were not applied consistently
throughout the Modernization Program. For example, the CADE project has shown a pattern of
deferring project requirements to later releases and missing release deployment dates since the
beginning of the project. CADE project requirements from each release have been deferred, and
the project has missed target dates because the IRS and the PRIME contractor agreed to an
unrealistic scope of work and did not follow the Enterprise Life Cycle Preliminary Design Phase
guidelines.9


8
  Improvements to the Modernized e-File System Will Help Provide Intended Benefits to the Internal Revenue
Service and Taxpayers (Reference Number 2008-20-122, dated June 18, 2008).
9
  Vital Decisions Must Be Made to Ensure Successful Implementation of Customer Account Data Engine
Capabilities (Reference Number 2007-20-080, dated July 13, 2007).
                                                                                                         Page 8
                                        Annual Assessment of the
                                 Business Systems Modernization Program



In contrast, the Account Management Services project’s success can be attributed to the efforts
of the project team following Enterprise Life Cycle guidelines, developing required work
products, completing detailed release designs on time, and formulating a manageable scope.10
The Modernization Program has continued to struggle with requirements management processes.
For example, an audit of the Modernized e-File project found that the project requirements were
not traced between the System Requirements Report and the requirements traceability
verification matrices.11 The Enterprise Life Cycle directs project teams to verify that the
contractor is maintaining the traceability of project requirements for applications developed
throughout the project life cycle, including ensuring that each requirement is mapped to its
higher level requirement. The Software Engineering Institute’s Capability Maturity Model
Integration provides that a project should maintain bi-directional traceability between source
requirements and all product requirements. Without complete bi-directional traceability, it is
difficult for the IRS to assess the adequacy of requirements development and testing activities.
In addition, there is no assurance that the requirements expected and approved to be deployed are
the requirements that are actually deployed.
In addition, since the beginning of the CADE project’s development, we have identified a trend
by the project team of deferring requirements to later releases and missing release deployment
dates. For example, the Release 2 requirements were revised based on the contracted goal of
processing 33 million tax returns during the 2007 Filing Season and did not consider the
complexity of the programming involved for processing these returns.12

The Federal Acquisition Regulation was not consistently followed
The Federal Acquisition Regulation is a set of policies and procedures for procurements by and
for the use of Federal Government agencies. They include solicitation and selection of contract
sources, awards, financing, performance and administration, and technical and management
functions.
We issued a report in May 200513 indicating the actions necessary for the Modernization
Program to fully realize the potential of performance-based contracting. We made
recommendations for improvement in the areas of (1) firm fixed-price task orders, (2) contract
negotiation practices, and (3) monitoring contractor performance.


10
   The Account Management Services Project Is Meeting Its Development Goals (Reference Number 2008-20-053,
dated March 3, 2008).
11
   The Modernized e-File Project Can Improve Its Management of Requirements (Reference Number 2007-20-099,
dated July 9, 2007).
12
   Vital Decisions Must Be Made to Ensure Successful Implementation of Customer Account Data Engine
Capabilities (Reference Number 2007-20-080, dated July 13, 2007).
13
   While Many Improvements Have Been Made, Continued Focus Is Needed to Improve Contract Negotiations and
Fully Realize the Potential of Performance-Based Contracting (Reference Number 2005-20-083, dated May 2005).
                                                                                                     Page 9
                                       Annual Assessment of the
                                Business Systems Modernization Program



Our 2007 report14 showed that weaknesses in implementing controls to manage contractor
performance and accountability remained. For example, a review of Modernization Program
contracting activities found that further improvements could be made in selecting and
documenting appropriate contract types by (1) balancing risk between the IRS and its
contractors, (2) ensuring that incentives and disincentives are included in task orders when
appropriate, and (3) improving documentation to justify the contract type selected.
In addition, improvements could be made to contract negotiation and management practices by
(1) improving the preparation and use of independent Federal Government cost estimates,
(2) eliminating the use of Memoranda of Understanding, (3) consistently preparing and using
pre-award timelines, and (4) monitoring contractors’ performance by consistently including
measurable performance standards in task orders and documenting contractors’ performance
against the standards.
Ineffective contract management has contributed to delays in project and release deliverables,
inadequate deliverables, and increased development costs. The absence of sufficient contract
negotiation and monitoring provides opportunities for contractor waste, inefficiencies, and
accounting irregularities. For example, a task order audit determined that the contractor’s
assignment of personnel was not closely monitored by the IRS. As a result, the audit identified
approximately $3.4 million in questionable contractor charges.
Without close adherence to established guidelines such as the Enterprise Life Cycle guidelines
and its related key processes and the Federal Acquisition Regulation, the IRS cannot efficiently
and effectively manage the Modernization Program. Because the IRS did not adhere to
established guidelines, the Program has experienced delays in project completion, incurred
increased development costs, and delivered projects and releases with fewer capabilities than
originally planned.

The Modernization Program should continue to be designated a material
weakness
The IRS continues to encounter barriers to delivering a successful modernization. To address
these barriers, the IRS’ corrective responses to TIGTA and Government Accountability Office
recommendations are evaluated and submitted as Highest Priority Initiatives candidates, when
appropriate, and are selected at the discretion of executive leadership. In this manner, the IRS
continues to execute the Highest Priority Initiatives process and include Modernization Program
corrective actions from TIGTA and Government Accountability Office reports.
In the past year, several Highest Priority Initiatives related to TIGTA recommendations were
identified for action. The IRS continues to deliver monthly Highest Priority Initiatives reports


14
  While Improvements Continue in Contract Negotiation Methods and Management Practices, Inconsistencies Need
to Be Addressed (Reference Number 2007-20-123, July 27, 2007).
                                                                                                   Page 10
                                           Annual Assessment of the
                                    Business Systems Modernization Program



and plans to use this process to eventually downgrade the Modernization Program material
weakness. Although this process is in place, we believe that, until the IRS is able to show
consistent progress and improvement in the management of its Modernization Program and
adequately address past TIGTA and Government Accountability Office recommendations, the
Modernization Program should continue to be considered a material weakness.
The Federal Managers’ Financial Integrity Act of 198215 requires each Federal Government
agency to prepare for Congress and the President an annual report that identifies material
weaknesses and the agency’s corrective action plans and schedules. Since 1995, the IRS has
identified and reported systems modernization as a material weakness. Office of Management
and Budget Circular A-12316 defines a material weakness as any condition an agency head
determines to be significant enough to be reported outside the agency. To maintain the high
level of attention, focus, and accountability, we believe the Modernization Program should
remain a material weakness for the IRS. Appendix VII presents an analysis of recommendations
from TIGTA reports related to the Modernization Program material weakness. Appendix VIII
presents a summary of the TIGTA reports issued since July 2007 that assessed the performance
and progress of the Modernization Program.




15
     31 U.S.C. Sections 1105, 1113, 3512 (2000).
16
     Management's Responsibility for Internal Control, dated December 2004.




                                                                                      Page 11
                                       Annual Assessment of the
                                Business Systems Modernization Program



                                                                                           Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the progress of the IRS’ Modernization
Program for Fiscal Year 2008, as required by the IRS Restructuring and Reform Act of 1998.1
To accomplish this objective, we:
I.      Determined the current condition of the Modernization Program.
        A. Reviewed TIGTA reports issued from July 2007 through April 20082 and 6 previous
           Modernization Program annual assessment reports (issued in Fiscal Years 2002,
           2003, 2004, 2005, 2006 and 2007).3
        B. Reviewed recent IRS Oversight Board documents to identify current IRS Oversight
           Board issues and concerns.
        C. Reviewed Government Accountability Office reports relevant to Modernization
           Program activities.
        D. Determined the TIGTA audit recommendations related to the Modernization Program
           material weakness with incomplete IRS corrective actions.
II.     Determined the status and condition of the Modernization Program reported by the IRS
        by reviewing the following documentation:
        A. The Systems Modernization Material Weakness Plan.
        B. The Information Technology Modernization Vision and Strategy documents.
        C. The Business Systems Modernization Expenditure Plans, including an evaluation of
           any cost, schedule, and functionality variances. We did not validate the information



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  See Appendix VIII for a detailed list of recent TIGTA reports and associated findings.
3
  Annual Assessment of the Internal Revenue Service’s Business Systems Modernization Program (Reference
Number 2002-20-189, dated September 2002); Annual Assessment of the Business Systems Modernization Program
(Reference Number 2003-20-208, dated September 2003); Annual Assessment of the Business Systems
Modernization Program (Reference Number 2004-20-107, dated June 2004); Annual Assessment of the Business
Systems Modernization Program (Reference Number 2005-20-102, dated August 2005); Annual Assessment of the
Business Systems Modernization Program (Reference Number 2006-20-102, dated June 2006); and Annual
Assessment of the Business Systems Modernization Program (Reference Number 2007-20-121, dated
August 24, 2007).
                                                                                                   Page 12
                            Annual Assessment of the
                     Business Systems Modernization Program



   provided by the IRS on the cost, scope, and business value of the Modernization
   Program.
D. The IRS’ Highest Priority Initiatives status reports for the Modernization Program.
E. IRS Modernization Has Delivered Real Business Value status reports on business
   value released into production.




                                                                                 Page 13
                                   Annual Assessment of the
                            Business Systems Modernization Program



                                                                               Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Preston B. Benoit, Acting Assistant Inspector General for Audit (Information Systems Programs)
Scott A. Macfarlane, Director
Edward A. Neuwirth, Audit Manager
Glen J. Rhoades, Senior Auditor
Louis V. Zullo, Senior Auditor
Charlene L. Elliston, Auditor




                                                                                      Page 14
                                 Annual Assessment of the
                          Business Systems Modernization Program



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CIO:AD
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Director, Office of Program Evaluation and Risk Analysis RAS:O
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Director, Stakeholder Management OS:CIO:SM
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:AD
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                                 Page 15
                                            Annual Assessment of the
                                     Business Systems Modernization Program



                                                                                     Appendix IV

                          Enterprise Life Cycle Overview

The Enterprise Life Cycle1 is the IRS’ standard approach to business change and information
systems initiatives. It is a collection of program and project management best practices designed
to manage business change in a successful and repeatable manner. The Enterprise Life Cycle
addresses large and small projects developed internally and by contractors.
The Enterprise Life Cycle includes such requirements as:
      •    Development of and conformance to an enterprise architecture.
      •    Improving business processes prior to automation.
      •    Use of prototyping and commercial software, where possible.
      •    Obtaining early benefit by implementing solutions in multiple releases.
      •    Financial justification, budgeting, and reporting of project status.
In addition, the Enterprise Life Cycle improves the IRS’ ability to manage changes to the
enterprise; estimate the cost of changes; and engineer, develop, and maintain systems effectively.
Figure 1 provides an overview of the layers, paths, phases, and milestones (shown as “MS” in
Figure 1) within the Enterprise Life Cycle Framework.




1
    See Appendix IX for a glossary of terms.
                                                                                          Page 16
                                                                        Annual Assessment of the
                                                                 Business Systems Modernization Program



                                                     Figure 1: Enterprise Life Cycle Framework
    Governance Management




                                                                                              Acquisition Management
                  Layer




                                                                                               Program Management

                                                                                        Implementation Project Management
      Layer




                                                             MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                            Large Custom Path
                            Small Custom Path
    Solution Life Cycle




                            Commercial-Off-the-
                            Shelf Path             Vision and
                                                   Strategy /                           Domain                                          System           System       Operations and
           Layer




                            Joint Application                         Project                         Preliminary Detailed Design
                                                   Enterprise                         Architecture                                    Development      Deployment      Maintenance
                            Development /                        Initiation Phase                    Design Phase     Phase
                                                  Architecture                           Phase                                           Phase           Phase            Phase
                            Rapid Application
                                                     Phase
                            Development Path
                            Iterative Custom
                            Path
    Methodology Solution




                                                  Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
                 Layer




                                                  Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                    Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
       Layer




                                                                        Developer's Business Change or System Change Methodology



                                                                                    Enterprise Integration, Test, and Evaluation
    Specialty Areas




                                                                                    Business Rules Harvesting and Management
                                                                                               Transition Management
        Layer




                                                                                               Enterprise Architecture
                                                                                      Capital Planning and Investment Control
                                                                                                Security and Privacy
                                                                                    Requirements Development and Management


Source: Graphical representation of the Enterprise Life Cycle Framework modified from the Enterprise Life Cycle
Guide.

Enterprise Life Cycle Layers
The Enterprise Life Cycle is a framework for organizing and using IRS directives, processes,
procedures, templates, and standards to accomplish business change. It is organized as a set of
six interacting layers.
      •                     The Management Layer specifies how to plan and control business change programs,
                            projects, acquisitions, and solutions throughout the Enterprise Life Cycle.
      •                     The Governance Layer specifies additional controls imposed from outside the project or
                            program.
      •                     The Solution Life Cycle Layer specifies what should be done, but not how to do it.
      •                     The Solution Layer manages the solution as it is produced, including providing
                            standards for consistent solution specification and formal review of solution content.


                                                                                                                                                                          Page 17
                                     Annual Assessment of the
                              Business Systems Modernization Program



       This Layer provides control over work products that may be produced by multiple
       internal and external developers using differing methodologies.
   •   The Methodology Layer details how to do the work and specifies a unique set of work
       products to be produced. Specific methodologies are not part of the Enterprise Life
       Cycle Framework.
   •   The Specialty Areas Layer provides additional guidance for areas of particular
       importance within the IRS. These areas include Enterprise Integration, Test, and
       Evaluation; Business Rules Harvesting and Management; Transition Management;
       Enterprise Architecture; Capital Planning and Investment Control; Security and Privacy;
       and Requirements Development and Management.

Enterprise Life Cycle Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
Enterprise Life Cycle specifies a standard for the work required to produce and operate business
change solutions, there are multiple ways to approach and accomplish the required work. Paths
are like alternate roads, each of which crosses different terrain, but all of which lead to the same
destination. The Enterprise Life Cycle provides five distinct paths or approaches to developing
systems:
   •   The Large Custom Path is for large projects.
   •   The Small Custom Path is for small projects.
   •   The Commercial-Off-the-Shelf Path is a commercial software-based approach.
   •   The Joint Application Development/Rapid Application Development Path is a highly
       accelerated, prototyping-based approach for very small, stand-alone solutions or solution
       components.
   •   The Iterative Custom Path is a hybrid approach that combines elements of the other
       approaches.

Enterprise Life Cycle Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS
executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.



                                                                                             Page 18
                                    Annual Assessment of the
                             Business Systems Modernization Program



             Figure 2: Enterprise Life Cycle Phases and Milestones
                                                   General Nature                       Concluding
            Phase                                      of Work                           Milestone
Vision and Strategy/            High-level direction setting. This is the only phase
                                                                                            0
Enterprise Architecture Phase   for enterprise planning projects.
                                                                                            1
Project Initiation Phase        Startup of development projects.

Domain Architecture Phase       Specification of the operating concept, requirements,       2
                                and structure of the solution.
                                                                                            3
Preliminary Design Phase        Preliminary design of all solution components.
                                                                                           4A
Detailed Design Phase           Detailed design of solution components.

System Development Phase        Coding, integration, testing, and certification of         4B
                                solutions.

System Deployment Phase         Expanding availability of the solution to all target
                                                                                            5
                                users. This is usually the last phase for development
                                projects.
                                                                                         System
Operations and Maintenance      Ongoing management of operational systems.
                                                                                        Retirement
Phase
Source: The Enterprise Life Cycle Guide.




                                                                                                Page 19
                                                          Annual Assessment of the
                                                   Business Systems Modernization Program



                                                                                                                Appendix V

                                       Modernization Program Funding

Figure 1 depicts cumulative funding received by the Modernization Program for contractor costs.
                                      Figure 1: Modernization Program Funding Timeline
                                                   (Dollars are cumulative)

                                   $3,000                                                                             $2,717
                                                                                                             $2,538
                                   $2,500                                                           $2,301
                                                                                               $2,134
                                                                                      $1,937
           Dollars (in millions)




                                   $2,000                                    $1,734
                                                                        $1,346
                                   $1,500
                                                                 $968
                                   $1,000                 $577
                                                   $449
                                    $500
                                             $35
                                      $0
                                            1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009

                                                                        Fiscal Year


Source: Business Systems Modernization Expenditure Plans.




                                                                                                                          Page 20
                                                         Annual Assessment of the
                                                  Business Systems Modernization Program



Figure 2 depicts the funding received annually by the Modernization Program for program
management and development of business and infrastructure projects.
                                    Figure 2: Modernization Program Funding by Fiscal Year



                                    $450          $414          $391          $388
                                    $400                               $378

                                    $350
            Dollars (in millions)




                                    $300
                                                                                                        $237
                                    $250                                             $203 $197
                                    $200                                                                       $179
                                                                                                 $167
                                                         $128
                                    $150
                                    $100    $35
                                     $50
                                      $0
                                           1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009
                                                                        Fiscal Year

Source: Business Systems Modernization Expenditure Plans.
Note – The Fiscal Year 2009 amount has not yet been appropriated. The amount is from the President’s Fiscal
Year 2009 Budget Request and includes an estimated $43.4 million to fund associated IRS labor costs.




                                                                                                                 Page 21
                                                        Annual Assessment of the
                                                 Business Systems Modernization Program



Figure 3 depicts the cumulative funding received by the Modernization Program for
non-contractor costs of managing Modernization Program activities. The IRS stated that
approximately 25 percent of its non-contractor budget since Fiscal Year 2001 has been used to
support non-Modernization Program activities in the IRS.
      Figure 3: Non-contractor Modernization Funding Timeline by Fiscal Year
                             (Dollars are cumulative)


                                   $400
                                                                                                       $353.4
                                   $350
                                                                                                  $310.0
           Dollars (in millions)




                                   $300                                                      $265.0
                                   $250                                                 $220.0

                                   $200                                        $170.2

                                   $150                                   $119.0

                                   $100                               $82.4
                                                              $54.3
                                    $50               $27.6
                                           $6.2 $11.8
                                     $0
                                          1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009
                                                                      Fiscal Year


Source: Actual funding for Fiscal Years 1999 through 2008 and the budget estimate for Fiscal Year 2009 provided
by the IRS.




                                                                                                                Page 22
                                                        Annual Assessment of the
                                                 Business Systems Modernization Program



Figure 4 depicts the funding received annually by the Modernization Program for non-contractor
costs of managing Program activities.
            Figure 4: Non-contractor Modernization Costs by Fiscal Year

                                     $60
                                                                                        $51.2 $49.8
                                     $50                                                              $45.0 $45.0   $43.4
             Dollars (in millions)




                                     $40                                        $36.6
                                                                        $28.1
                                     $30                        $26.7


                                     $20                $15.8

                                     $10    $6.2 $5.6


                                      $0
                                           1999 2000 2001 2002 2003 2004 2005 2006 2007 2008 2009
                                                                          Fiscal Year

       Source: Actual funding for Fiscal Years 1999 through 2008 and the budget estimate for Fiscal
       Year 2009 provided by the IRS.




                                                                                                                            Page 23
                                         Annual Assessment of the
                                  Business Systems Modernization Program



Figure 5 depicts the Modernization Program funding for non-contractor and external (contractor)
costs to manage Program activities.
     Figure 5: Internal and External Modernization Program Costs (in millions)



                                                                     Internal Costs
                                                                     $353.4 (11.5%)


                              External
                                Costs
                               $2,717
                               (88.5%)




Source: Actual internal costs for Fiscal Years 1999 through 2008 and the internal budget estimate for
Fiscal Year 2009 provided by the IRS. The external costs were derived from Business Systems Modernization
Expenditure Plans.




                                                                                                      Page 24
                                      Annual Assessment of the
                               Business Systems Modernization Program



                                                                                       Appendix VI

       Project Cost and Schedule Variance Analysis

Table 1 presents the cost and schedule variance for Modernization Program project releases
delivered since May 2007 and currently in progress.
      Table 1: Modernization Project Cost and Schedule Variance Summary

                   Scheduled                        Cost          Cost      Schedule   Schedule
                     Finish                       Variance      Variance    Variance   Variance
     Release          Date          Milestone     (Dollars)     (Percent)    (Days)    (Percent)
     CADE
       2.2         June 27, 2007    4            $3,777,000       15%          123      65%
         3     September 26, 2007  2-3               $0            0%          214      152%
       3.1     November 20, 2007    4                $0            0%           -7       -2%
       3.2      February 27, 2008    4               $0            0%           -1        0%
         4      February 13, 2008  2-3               $0            0%          -10       -3%
       4.1       August 31, 2008    4                $0           0%            0        0%
         5     September 30, 2008  2-3               $0            0%            0        0%
     Account Management Services
       1.1          May 3, 2007     4a               $0            0%          3          5%
       1.1     September 26, 2007   4b               $0            0%          -1        -1%
       1.1       January 29, 2008    5               $0            0%           0         0%
       1.2        March 13, 2007    4a               $0            0%          -2        -2%
       1.2      February 13, 2008   4b               $0            0%          11         9%
       1.2     November 11, 2008     5               $0            0%           0         0%
       1.3         July 24, 2007   2-3               $0            0%          0          0%
       1.3      February 13, 2008   4a               $0            0%           1         1%
       1.3     November 11, 2008    4b               $0            0%           0         0%
       2.1        April 15, 2008    3                $0            0%          0         0%
     Filing and Payment Compliance
       1.2     September 27, 2007   5             $340,000        10%           -1       -1%
     Modernized e-File
         5         April 2, 2008   4a-5          $1,300,000       10%           2         1%
         6          May 6, 2008     3                $0           0%           19        10%
    Source: IRS Applications Development organization – Resources Management office.



                                                                                                   Page 25
                                          Annual Assessment of the
                                   Business Systems Modernization Program



                                                                                                 Appendix VII

   Open Recommendations Related to Modernization
           Program Material Weaknesses

Table 1 lists TIGTA audit recommendations with current IRS open corrective actions related to
the Modernization Program material weakness.
               Table 1: TIGTA Recommendations Related to Modernization
                              Program Material Weakness

The Modernization, Information Technology and Security Services Organization Needs to Take Further Action
to Complete Its Human Capital Strategy (Reference Number 2003-20-209, dated September 2003)
                      To ensure the MITS organization has sufficient data to determine human capital demands,
                      the Chief Information officer (CIO) needs to support the Director, Management Services, to
                      work with offices throughout the MITS organization to identify the human capital demand.
    2003-20-209
                      The demand includes information to adequately plan the number, location, and assignment
     Finding 1,
                      schedule of human capital assets for existing information systems (from owners in the
Recommendation 1
                      Information Technology Services organization) and future MITS organization operations
                      (from owners in the Business Systems Modernization Program).
                      Due Date: December 31, 2010.
                      To ensure the MITS organization has adequate staffing to meet its needs, the CIO should
                      charge the Director, Management Services, to develop detailed hiring and retention plans.
                      These plans should consider staff position “return on investment” as a consideration for
                      determining the type of talent to recruit or retain and should be incorporated into the MITS
    2003-20-209       organization’s human capital strategy with relevant links to its budget.
     Finding 2,       Recruiting: Prioritize the most critical skill needs and position locations with project
Recommendation 1 development, deployment, implementation, and operation schedules. Proceed with hiring
                      specific skills based on decisions to recruit for the subject position with either fully trained
                      or trainable talent or through an internship position.
                      Retention: Identify and compile retention incentives into a plan to maintain the MITS
                      organization talent pool. Due Date: December 31, 2010.
Risks Are Mounting as the Integrated Financial System Project Team Strives to Meet an Aggressive
Implementation Date (Reference Number 2004-20-001, dated October 2003)
    2004-20-001       To ensure a high-quality system is delivered, the CIO should ensure the disaster recovery
     Finding 2,       environment is completely built out and tested as soon as possible.
Recommendation 1 Due Date: December 31, 2010.
The Office of Release Management Can Improve Controls for Modernization Program Coordination
(Reference Number 2004-20-157, dated September 2004)
                      To help provide clear direction in the development of the Modernization Program, the CIO
    2004-20-157
                      should determine whether and how the Business Systems Modernization Office will fulfill
     Finding 1,
                      the Modernization Program integrator role and document the related responsibilities and
Recommendation 1
                      processes. Due Date: December 31, 2010.


                                                                                                             Page 26
                                          Annual Assessment of the
                                   Business Systems Modernization Program




The Business Systems Modernization Program Has Achieved Mixed Success in Addressing Weaknesses
Identified in Internal and External Studies (Reference Number 2006-20-003, dated November 2005)
                       To ensure study weaknesses and previous recommendations concerning
   2006-20-003         change/configuration management are addressed, the Associate CIO, Enterprise Services,
    Finding 1,         should create an overall plan that includes defined tasks, responsible individuals, and
Recommendation 2 estimated completion dates for implementing the standardized configuration management
                       toolset. Due Date: December 31, 2010.
The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not
Being Identified (Reference Number 2006-20-108, dated August 9, 2006)
                       The CIO should defer additional work on the Web Electronic Fraud Detection System until
                       the IRS decides who will perform the Electronic Fraud Detection System work. If some or
   2006-20-108
                       all of the work will transfer to other business units, the CIO should ensure their requirements
    Finding 3,
                       are identified before initiating a contract for further development of the Web Electronic
Recommendation 4
                       Fraud Detection System. The contract should be opened to competition.
                       Due Date: December 31, 2010.
The Modernization and Information Technology Services Organization’s Revised Post Implementation Review
Procedure Can Be Improved (Reference Number 2007-20-001, dated October 26, 2006)
                       The CIO should direct the Program Performance Management office to develop a schedule
                       to perform Post Implementation Reviews for releases deployed and to identify and obtain
                       staffing resource commitments needed from the Program Performance Management office,
   2007-20-001         the Office of Program Evaluation and Risk Analysis, and appropriate business unit
    Finding 1,         representatives to effectively execute the Post Implementation Reviews. The CIO should
Recommendation 1 also direct the Program Performance Management office to eliminate the requirement to
                       perform Post Reviews of milestone completion activities after milestone exits, with the
                       option of identifying any lessons learned for further project progress through the Milestone
                       Exit Reviews. Due Date: March 1, 2010.
   2007-20-001         The CIO should direct the Program Performance Management office to implement a
    Finding 1,         procedure to control Post Implementation Review results that ensures appropriate executives
Recommendation 2 and decision makers have access to these documents. Due Date: March 1, 2010.
                       The CIO should direct the Program Performance Management office to identify skills and
                       abilities desired for Post Implementation Review team members and ensure team
   2007-20-001
                       assignments consider these qualifications. The Program Performance Management office
    Finding 1,
                       should develop a training guide for Post Implementation Review team members to provide
Recommendation 3
                       them with an understanding of the purpose, objectives, and processes of the Post
                       Implementation Review. Due Date: March 1, 2010.
The Modernization and Information Technology Services Organization Can Improve Its Budget Formulation,
Execution, and Review Processes (Reference Number 2007-20-064, dated May 9, 2007)
                       The CIO should implement a process to develop the entire MITS organization budget in line
                       with the Information Technology Modernization Vision and Strategy’s rolling 5-year
   2007-20-064
                       prioritized plan. The budget process should consider organizational goals for each of the
    Finding 1,
                       MITS organization components and include costs for operations and maintenance of
Recommendation 1
                       existing computer systems, telecommunication systems, and other programs such as
                       end-user support and help desk activities. Due Date: October 1, 2008.




                                                                                                             Page 27
                                         Annual Assessment of the
                                  Business Systems Modernization Program




                    The CIO should ensure (1) the draft Budget Cycle procedures are approved and
  2007-20-064       implemented timely and (2) the Financial Management Services organization supplements
    Finding 2,      the budget formulation processes with detailed procedures documenting Financial
Recommendation 1    Management Services organization staff duties and responsibilities for soliciting, receiving,
                    reviewing, and reporting MITS organization budget estimates. Due date: January 1, 2008.
                    The CIO should ensure (1) the draft Budget Cycle document is approved timely and the
   2007-20-064      spending review procedures are implemented and (2) the Financial Management Services
    Finding 3,      organization supplements the spending review reporting with additional procedures that
Recommendation 1 identify Fund Center Changes necessary to realign funds in response to spending review
                    results. Due date: January 1, 2008.
The Modernized e-File Project Can Improve Its Management of Requirements (Reference
Number 2007-20-099, dated July 9, 2007)
                    To complete the previous corrective action, the CIO should ensure the Modernized e-File
   2007-20-099      System Requirements Report and Release 4 requirements traceability verification matrices
    Finding 1,      are updated to include traceability to valid requirement numbers, to meet the Enterprise Life
Recommendation 1 Cycle provisions for managing requirements. This control will provide assurance about the
                    development of all approved requirements. Due Date: February 1, 2009.

Vital Decisions Must Be Made to Ensure Successful Implementation of Customer Account Data Engine
Capabilities (Reference Number 2007-20-080, dated July 13, 2007)
                      The CIO should partner with the Wage and Investment Division Business Modernization
                      Office to jointly review alternative design solutions and identify process improvements for
   2007-20-080
                      the CADE. Alternative design solutions, such as delaying processing of some tax returns on
     Finding 3,
                      extremely high-volume processing days or obtaining additional computer resources on an
Recommendation 1
                      interim basis, need to be explored to ensure the CADE can operate as efficiently and
                      effectively as possible. Due Date: July 1, 2008.
While Improvements Continue in Contract Negotiation Methods and Management Practices, Inconsistencies
Need to Be Addressed (Reference Number 2007-20-123, dated July 27, 2007)
                      The CIO and the Chief, Agency-Wide Shared Services, should collect and review lessons
   2007-20-123
                      learned from the use of independent estimates to determine whether independent estimates
     Finding 2,
                      can become a consistently more useful negotiations tool (e.g., ensuring estimates are
Recommendation 1
                      obtained at the appropriate time). Due Date: March 1, 2009.
                      The CIO and the Chief, Agency-Wide Shared Services, should ensure improvements and
   2007-20-123        training opportunities for the use of performance standards are identified and coordinated
     Finding 3,       with other IRS organizations to encourage the use of performance standards for systems
Recommendation 2 development task orders outside of the control of the MITS organization.
                      Due Date: June 15, 2008.
                      The CIO and the Chief, Agency-Wide Shared Services, should collect and disseminate
   2007-20-123        guidance for documenting contractor performance and coordinate with other IRS
     Finding 3,       organizations to communicate the importance of documenting contractor performance for
Recommendation 4 systems development task orders outside the control of the MITS organization.
                      Due Date: June 15, 2008.




                                                                                                         Page 28
                                         Annual Assessment of the
                                  Business Systems Modernization Program




Improvements to the Modernized e-File System Will Help Provide Intended Benefits to the Internal Revenue
Service and Taxpayers (Reference Number 2008-20-122, dated June 18, 2008)
                    The Commissioner, Wage and Investment Division, should require the Director, Submission
                    Processing, and the Director, Electronic Tax Administration to develop a formal process for
                    identifying, reporting, and resolving Modernized e-File system application processing issues
   2008-20-122
                    that require subsequent tax return and account adjustment activity. This control process will
    Finding 1,
                    provide a means for identifying significant Modernized e-File system tax return issues and
Recommendation 1
                    provide the IRS with the ability to develop corrective actions. This control can also be used
                    to notify IRS staff of processing issues to enable appropriate compliance actions.
                    Due Date: March 15, 2009.
                    The Deputy Commissioner for Operations Support and the Deputy Commissioner for
                    Services and Enforcement should ensure the business operating divisions and the MITS
                    organization coordinate the capabilities of the Technology and Data Integration Plan
   2008-20-122      initiative and the Enterprise Return Retrieval system into the Information Technology
    Finding 2,      Modernization Vision and Strategy. Coordinating the Technology and Data Integration Plan
Recommendation 3 and Enterprise Return Retrieval system with the Information Technology Modernization
                    Vision and Strategy will help allow the IRS to achieve enterprise-wide capabilities for the
                    identification, control, and analysis of electronic tax return and taxpayer account
                    information for customer service and compliance purposes. Due Date: December 1, 2008.




                                                                                                        Page 29
                                       Annual Assessment of the
                                Business Systems Modernization Program



                                                                                            Appendix VIII

        Recent Treasury Inspector General for
          Tax Administration Reports on the
  Internal Revenue Service’s Modernization Program

Table 1 lists TIGTA reports related to the IRS Modernization Program issued from July 2007
through April 2008 and the associated findings, recommendations, and IRS corrective actions.
         Table 1: Recent TIGTA Reports, Findings, and Corrective Actions

Report and Date      Finding and Recommendation                              Corrective Action

The Modernized    Finding: Additional actions should be     The IRS will complete the traceability of the
 e-File Project   taken to adequately complete              requirements for Modernized e-File Releases 4 and
Can Improve Its   requirements traceability for the         5 using the System Requirements Report manual
Management of     project.                                  process that is currently in place. Full bi-directional
 Requirements                                               traceability will not be possible until the project is
                  Recommendation: To complete the           able to consolidate all requirements, change
  2007-20-099     previous corrective action, the CIO       requests, work requests, test cases, and defects into
                  should ensure the Modernized e-File       one related system. For Release 6, the Modernized
  July 9, 2007    System Requirements Report and            e-File project is working with the Business Rules
                  Release 4 requirements traceability       and Requirements Management office to implement
                  verification matrices are updated to      a full bi-directional traceability model. The
                  include traceability to valid             Modernized e-File project’s use of the Business
                  requirement numbers, to meet the          Rules and Requirements Management office is
                  Enterprise Life Cycle provisions for      consistent with the Government Accountability
                  managing requirements. This control       Office’s 2006 recommendations related to
                  will provide assurance about the          strengthening requirements standards.
                  development of all approved               Status: Open. Due date is February 1, 2009.
                  requirements.

                  Recommendation: The CIO should            The Business Rules and Requirements Management
                  ensure the detailed guidance currently    office will review the guidance developed as a part
                  being developed by the IRS Business       of Highest Priority Initiative-55, Implement Best
                  Rules and Requirements Management         Practices for Requirements Development and
                  office includes specifics about how       Management, dated March 7, 2007, and in response
                  projects should maintain and report       to a Government Accountability Office audit to
                  bi-directional traceability, to ensure    ensure that proper information is included to help
                  traceability is complete and consistent   projects understand how to perform bi-directional
                  for all projects.                         traceability. The Business Rules and Requirements
                                                            Management office will document its findings from
                                                            this review. Status: Closed July 31, 2007.


                                                                                                         Page 30
                                       Annual Assessment of the
                                Business Systems Modernization Program




Report and Date      Finding and Recommendation                                Corrective Action

Vital Decisions   Finding 1: Plans for deploying CADE         The CIO agreed with this recommendation and will
Must Be Made to   releases have not been achieved.            ensure the IRS negotiates a reasonable scope of
    Ensure                                                    work for future CADE release development that
  Successful      Recommendation: The CIO should              considers the amount and difficulty of the work and
Implementation    ensure the IRS negotiates a reasonable      the filing season time constraints. The CIO has
 of Customer      scope of work for future CADE release       begun to address the cause of scope estimation
 Account Data     development that considers the amount       problems through implementation of a formal
    Engine        and difficulty of the work and the filing   Business Systems Requirements Report document
  Capabilities    season time constraints.                    using IRS processes in the Business Rules and
                                                              Requirements Management Program Office to
  2007-20-080                                                 conduct detailed requirements elicitation.
                                                              Beginning with Release 4.0, the IRS will further
 July 13, 2007                                                identify, prioritize, and approve business
                                                              requirements to manage scope, mitigate business
                                                              risks, and meet business needs within an improved
                                                              framework.
                                                              Status: Closed February 5, 2008.

                  Recommendation: The CIO should              The CIO agreed that the IRS should analyze the
                  ensure the IRS analyzes the amount of       amount of staffing used during prior releases to help
                  staffing used during prior releases to      verify the PRIME contractor’s staffing plans are
                  help verify the PRIME contractor’s          adequate. As of April 6, 2007, the IRS has
                  staffing plans are adequate to              mandated that PRIME contractors provide a list of
                  accomplish the scope of work projected      employees supporting CADE releases. CADE
                  for future project releases.                release managers review and analyze resources
                                                              listed to ensure adequate support is provided by
                                                              the contractors. This information is provided
                                                              weekly to the CADE Program Office. If staffing
                                                              issues are identified, they are addressed at the
                                                              Weekly Task Review meetings. This applies to
                                                              the existing CADE Cost-Plus-Fixed-Fee and
                                                              Cost-Plus-Incentive-Fee task orders. As the IRS
                                                              pursues more Firm Fixed-Price development efforts
                                                              in the future, it will not have the same access to staff
                                                              level details. Status: Closed July 31, 2007.




                                                                                                           Page 31
                                       Annual Assessment of the
                                Business Systems Modernization Program




Report and Date       Finding and Recommendation                                Corrective Action

                  Recommendation: The CIO should               The CIO agreed that the project should follow
                  ensure the Project follows Enterprise        Enterprise Life Cycle guidance for performing
                  Life Cycle guidance for performing           Customer Technical Reviews and Life Cycle Stage
                  Customer Technical Reviews and Life          Reviews after completion of the design phase for
                  Cycle Stage Reviews after completion         each release and major release segment. As the
                  of the design phase for each release and     complexity of projects has increased, and as the IRS
                  major release segment.                       gains more experience in managing large complex
                                                               development efforts, it has found that appropriately
                                                               tailoring the Enterprise Life Cycle to ensure the
                                                               effective use of contractor resources is critical to
                                                               delivering within cost and schedule parameters.
                                                               This tailoring aligns with the current Enterprise Life
                                                               Cycle methodology.
                                                               Status: Closed August 29, 2007.

                  Recommendation: The CIO should               The CIO agreed to not allow the PRIME contractor
                  not allow the PRIME contractor to exit       to exit the Preliminary Design Phase without
                  the Preliminary Design Phase without         identifying all of the work related to the release
                  identifying all of the work related to the   requirements. The IRS will identify all work related
                  release requirements.                        to a release before exiting the Preliminary Design
                                                               Phase. It is also tailoring the Enterprise Life Cycle
                                                               to align with best practices to ensure that project
                                                               continuity is not lost; specifically, when low-risk
                                                               activities can be implemented in parallel with
                                                               Enterprise Life Cycle approvals. As mentioned in a
                                                               prior corrective action, the IRS will ensure the
                                                               scope and requirements for a release are fully
                                                               understood so that it will be possible to segment
                                                               work into distinct builds or subreleases as it
                                                               continues to mature the development process for the
                                                               CADE in accordance with the Enterprise Life Cycle
                                                               guidance. Each of the builds or subreleases for new
                                                               CADE functionality will complete logical and
                                                               physical design before development.
                                                               Status: Closed August 29, 2007.




                                                                                                           Page 32
                                       Annual Assessment of the
                                Business Systems Modernization Program




Report and Date       Finding and Recommendation                               Corrective Action

                  Finding 2: The approach taken to             The CIO agreed with this recommendation and has
                  implement the architectural design will      tasks underway to develop the historical data store
                  not support CADE project long-term           and the requirements that are captured in the CADE
                  goals and objectives.                        Independent Requirements Project, and has also
                                                               undertaken efforts to see what improvements can be
                  Recommendation: The CIO should               made to daily processing. The scope of Releases
                  limit future project delivery to essential   3.1 and 3.2 has been fully defined and work is well
                  capabilities and filing season updates.      underway under a fixed-price arrangement with the
                  Further, the CIO should consider             PRIME contractor. As part of scoping Releases 3.1
                  postponing new capabilities until key        and 3.2, many new capabilities were deferred to
                  business decisions are made and the          ensure the above noted infrastructure improvements
                  following requirements are                   and previously deferred requirements were
                  implemented: historical data are             incorporated; however, some new capabilities have
                  stored, requirements identified by the       been included in Release 3.2. The IRS will
                  CADE Independent Requirements                continue to carefully plan and approve increments
                  Project are developed and                    of new functionality to include in future CADE
                  implemented, and daily processing            releases. Status: Closed August 29, 2007.
                  routines are improved.




                                                                                                         Page 33
                                       Annual Assessment of the
                                Business Systems Modernization Program




Report and Date      Finding and Recommendation                               Corrective Action

                  Finding 3: Implementing current             The CIO agreed with this recommendation and is
                  technology to support the CADE’s            actively engaged and continues to ensure the CADE
                  ultimate computer processing demands        Program Office and Wage and Investment Division
                  may be cost prohibitive.                    Business Modernization Office jointly review
                                                              design solutions and identify process improvements
                  Recommendation: The CIO should              for the Project. The CIO will continue to work with
                  partner with the Wage and Investment        the Submission Processing organization to identify
                  Division Business Modernization             alternatives for processing tax returns on high-
                  Office to jointly review alternative        volume days, and the Wage and Investment
                  design solutions and identify process       Division Business Modernization Office will
                  improvements for the Project.               continue to work along with the Enterprise
                  Alternative design solutions, such as       Computing Center to implement Saturday tax return
                  delaying processing of some tax returns     processing during the filing season. This approach
                  on extremely high-volume processing         avoids a backlog by allowing weekend volume to be
                  days or obtaining additional computer       spread across CADE cycles. These procedures were
                  resources on an interim basis, need to      first utilized for the 2006 Filing Season and
                  be explored to ensure the CADE can          continued in the 2007 Filing Season, and are
                  operate as efficiently and effectively as   outlined in memorandums signed by the Deputy
                  possible.                                   Director, Submission Processing, dated
                                                              January 26, 2006, and January 18, 2007,
                                                              respectively. The IRS remains committed to
                                                              ensuring all taxpayers processed by the CADE
                                                              receive the same advantages. Additionally, the
                                                              Submission Processing organization continues to
                                                              evaluate potential automated routines for returns
                                                              initiated through the Electronic Filing System for
                                                              processing in the CADE to further balance
                                                              workload throughout the day. The IRS will also
                                                              continue to explore alternative solutions for
                                                              successful implementation. In support of this issue,
                                                              a joint technical assessment team is being formed to
                                                              identify CADE technical constraints and
                                                              improvement opportunities with regard to the
                                                              architecture, performance, and software quality.
                                                              Status: Open. Due date is July 1, 2008.




                                                                                                        Page 34
                                       Annual Assessment of the
                                Business Systems Modernization Program




Report and Date      Finding and Recommendation                               Corrective Action

     While        Finding 1: Further improvements are        The IRS stated it agreed with, and has already
 Improvements     needed in the selection and                implemented, the recommendation to determine
  Continue in     documentation of appropriate contract      how persistent barriers to firm fixed-price contracts
    Contract      types.                                     within the Modernization Program should be
  Negotiation                                                eliminated where possible. In addition, other
  Methods and     Recommendation: To ensure an               comments included that the IRS continues to look
  Management      appropriate balance of risk between the    for opportunities to employ firm fixed-price
   Practices,     IRS and its contractors, the CIO and the   contracts on an ongoing basis.
Inconsistencies   Chief, Agency-Wide Shared Services,        Status: Closed August 23, 2007.
   Need to Be     should determine how persistent
   Addressed      barriers to firm fixed-price contracting
                  within the Modernization Program can
  2007-20-123     be eliminated.

 July 27, 2007    Recommendation: The CIO and the            The IRS stated it agreed with, and has already
                  Chief, Agency-Wide Shared Services,        implemented, the recommendation to ensure
                  should ensure improvements and             improvements and training opportunities for the use
                  training opportunities for the use of      of incentives and disincentives are identified and
                  incentives and disincentives are           coordinated with other IRS organizations. In
                  identified and coordinate with other       addition, other comments included that the Director,
                  IRS organizations to encourage the use     Procurement, emphasizes to Procurement office
                  of incentives and disincentives for        management the use of performance-based
                  systems development task orders            acquisitions to the maximum extent practicable,
                  outside the control of the MITS            including the use of incentives and disincentives.
                  organization.                              Status: Closed August 23, 2007.

                  Recommendation: The CIO and the            The IRS stated it agreed with the recommendation
                  Chief, Agency-Wide Shared Services,        to ensure Determination and Findings Documents
                  should ensure Determination and            are consistently prepared, as required by the Federal
                  Findings Documents are consistently        Acquisition Regulation, with adequate information
                  prepared, as required by the Federal       to explain the reasoning for the choice of contract
                  Acquisition Regulation, with adequate      type. The IRS Procurement office’s Quality
                  information to explain the reasoning for   Assurance Branch ensures that the Determination
                  the choice of contract type.               and Findings Documents are in the files requiring
                                                             solicitation/contract review. It has also issued
                                                             reminder emails to operations offices to ensure they
                                                             are continually aware of this requirement for any
                                                             award other than firm fixed-price.
                                                             Status: Closed October 4, 2007.




                                                                                                         Page 35
                                      Annual Assessment of the
                               Business Systems Modernization Program




Report and Date      Finding and Recommendation                           Corrective Action

                  Finding 2: Further improvements are     The IRS stated it agreed with the recommendation
                  needed for pre-award processes.         to collect and review lessons learned from the use of
                                                          independent estimates. It will collect and review
                  Recommendation: To improve              lessons learned from the use of independent
                  pre-award processes, the CIO and the    estimates developed by the Estimation Program
                  Chief, Agency-Wide Shared Services,     Office, a branch in Program Management Office
                  should collect and review lessons       Service. The Estimation Program Office will
                  learned from the use of independent     document findings from the review. The Business
                  estimates to determine whether          Integration organization is in the process of
                  independent estimates can become a      implementing changes in the estimation program for
                  consistently more useful negotiations   the remainder of Fiscal Year 2007 and through
                  tool (e.g., ensuring estimates are      Fiscal Year 2008, based on reviews of existing
                  obtained at the appropriate time).      processes as well as industry best practices. The
                                                          resources associated with the estimation program
                                                          are fully engaged in implementing these changes
                                                          and applying the new processes to the creation of
                                                          estimates during the remainder of Fiscal Year 2007
                                                          and through Fiscal Year 2008. The IRS will collect
                                                          and review lessons learned from the new processes
                                                          in order to gain the maximum benefit of the review.
                                                          Status: Open. The planned due date is
                                                          March 1, 2009.

                  Recommendation: The CIO and the         The IRS stated it agreed with, and has already
                  Chief, Agency-Wide Shared Services,     implemented, the recommendation to eliminate the
                  should eliminate the Memorandum of      Memorandum of Understanding requirement
                  Understanding requirement included in   included in the Acquisition Package Development
                  the Acquisition Package Development     procedure for Modernization task orders.
                  procedure for Modernization task        Status: Closed August 23, 2007.
                  orders.

                  Recommendation: The CIO and the         The IRS stated it agreed with, and has already
                  Chief, Agency-Wide Shared Services,     implemented, the recommendation to ensure
                  should ensure estimated and actual      estimated and actual pre-award dates are
                  pre-award dates are consistently        consistently tracked. To ensure consistent tracking
                  tracked.                                of estimated and actual pre-award dates for systems
                                                          development projects, the Treasury Information
                                                          Processing Support Services Program Branch has
                                                          enhanced the standard Acquisition Plan to better
                                                          reflect estimated and actual pre-award dates. The
                                                          new tracking tool identifies the major milestones
                                                          with both the planned and actual dates of
                                                          completion. Status: Closed August 23, 2007.




                                                                                                     Page 36
                                      Annual Assessment of the
                               Business Systems Modernization Program




Report and Date      Finding and Recommendation                           Corrective Action

                  Finding 3: Further improvements are     The IRS stated it agreed with, and already
                  needed in monitoring contractor         implemented, the recommendation to complete
                  performance.                            development of additional Total Information
                                                          Processing Support Services performance-based
                  Recommendation: To improve              statement of work templates to include all
                  monitoring of contractor performance,   milestones. The current Total Information
                  the CIO and the Chief, Agency-Wide      Processing Support Services Performance Work
                  Shared Services, should complete        Statement template is being tailored to meet each of
                  development of additional Total         the Enterprise Life Cycle milestones based on the
                  Information Processing Support          customers’ needs. The newly created Operations
                  Services performance-based statement    and Maintenance template was released as a draft
                  of work templates to include all        version on March 8, 2007, and further enhanced to
                  milestones.                             incorporate Milestones 2 through 6 (IRS Enterprise
                                                          Life Cycle and Operations and Maintenance
                                                          Programs) on May 23, 2007.
                                                          Status: Closed August 23, 2007.

                  Recommendation: The CIO and the         The IRS stated it agreed with the recommendation
                  Chief, Agency-Wide Shared Services,     to ensure improvements and training opportunities
                  should ensure improvements and          for the use of performance standards are identified
                  training opportunities for the use of   and coordinate with other IRS organizations to
                  performance standards are identified    encourage the use of performance standards for
                  and coordinate with other IRS           systems development task orders outside of the
                  organizations to encourage the use of   control of the MITS organization. Other corrective
                  performance standards for systems       action comments included that the Procurement
                  development task orders outside the     office will continue to emphasize to Office
                  control of the MITS organization.       Directors and Branch Chiefs the use of
                                                          performance-based acquisitions, and the
                                                          Procurement office will update its Intranet web site
                                                          to include links to sample monitoring plan templates
                                                          under the “How To” module and the Procurement
                                                          Forms, Reports and Templates module. The
                                                          “Performance Based Module” and the “How To”
                                                          module will be updated to contain a link to the “The
                                                          Six Disciplines of Performance-Based
                                                          Management.” The Procurement 101, a basic guide
                                                          to procurement for Procurement office customers, is
                                                          currently under development and will reference
                                                          performance-based links to applicable areas on the
                                                          Procurement office web site and other
                                                          performance-based contracting guidance as
                                                          applicable. Status: Open. The planned due date
                                                          is June 15, 2008.




                                                                                                     Page 37
                                      Annual Assessment of the
                               Business Systems Modernization Program




Report and Date      Finding and Recommendation                          Corrective Action

                  Recommendation: The CIO and the        The IRS stated it agreed with, and already
                  Chief, Agency-Wide Shared Services,    implemented, the recommendation to ensure
                  should ensure Modernization projects   Modernization projects consistently prepare
                  consistently prepare performance       performance monitoring plans (e.g., Task Order
                  monitoring plans (e.g., Task Order     Monitoring Plans, Quality Assurance Surveillance
                  Monitoring Plans, Quality Assurance    Plans) and will continue to work with projects to
                  Surveillance Plans).                   ensure implementation of current policy. For
                                                         Modernization projects, the Enterprise Life Cycle
                                                         requires project managers to develop a Project
                                                         Management Plan, which is a milestone exit
                                                         requirement. The Project Management Plan
                                                         templates include sections for Configuration
                                                         Management, Task Order Monitoring, Quality
                                                         Assurance, and other plans. In Fiscal Year 2007,
                                                         the IRS had continued to enhance and improve the
                                                         governance and project control of its Information
                                                         Technology portfolio. As part of these
                                                         improvements, additional project oversight has been
                                                         achieved through project health assessments,
                                                         expanded project control reviews, and expanded
                                                         governance by Executive Steering Committees.
                                                         Status: Closed August 23, 2007.




                                                                                                   Page 38
                                      Annual Assessment of the
                               Business Systems Modernization Program




Report and Date      Finding and Recommendation                             Corrective Action

                  Recommendation: The CIO and the          The IRS stated it agreed with the recommendation
                  Chief, Agency-Wide Shared Services,      to collect and disseminate guidance for
                  should collect and disseminate           documenting contractor performance and coordinate
                  guidance for documenting contractor      with other IRS organizations to communicate the
                  performance and coordinate with other    importance of documenting contractor performance
                  IRS organizations to communicate the     for systems development task orders outside of the
                  importance of documenting contractor     control of the MITS organization. The Procurement
                  performance for systems development      office is working on several new initiatives that will
                  task orders outside the control of the   assist IRS organizations in successful monitoring of
                  MITS organization.                       contractor performance. In addition to acquisition
                                                           training and seminars, plans also include for the
                                                           Procurement office to update its web site to make
                                                           improvements to address this recommendation and
                                                           issue a communication to inform all IRS employees
                                                           that performance monitoring information is
                                                           available through the Procurement office web site.
                                                           Also, a Procurement 101 initiative is currently under
                                                           development to include a guide and reference
                                                           performance-based links to applicable areas in the
                                                           web site and other performance-based guidance.
                                                           Timely completion of the following activities will
                                                           be monitored: Web site updates – August 1, 2007;
                                                           Frequently Asked Questions update –
                                                           September 30, 2007; IRS Newsflash –
                                                           September 30, 2007; Procurement 101 –
                                                           December 30, 2007; and Acquisition Planning
                                                           Conference – May 30, 2008. Status: Open. The
                                                           planned due date is June 15, 2008.




                                                                                                       Page 39
                                       Annual Assessment of the
                                Business Systems Modernization Program




Report and Date       Finding and Recommendation                               Corrective Action

                  Finding 4: While actions are being           The IRS stated it agreed with the recommendation
                  taken to improve contracting and             to ensure program and project managers are aware
                  management practices concerning              of the availability of multiyear funding for
                  non-Modernization development                non-Modernization systems development to further
                  projects, additional actions need to be      enable the use of firm fixed-price contracting. The
                  taken.                                       MITS organization’s Financial Management
                                                               Services function will work with the Associate
                  Recommendation: To improve                   CIOs to assess their needs for multiyear funding and
                  consistency of contract negotiation and      add the appropriate amount of Information
                  management practices between                 Technology Modernization Vision and Strategy
                  Modernization and non-Modernization          funds into the 2-year budget appropriation. In
                  systems development task orders, the         addition, at the start of each Budget Cycle the IRS
                  CIO and the Chief, Agency-Wide               will assess whether the amount should be adjusted.
                  Shared Services, should ensure               This procedure will be documented in the Budget
                  program and project managers are             Cycle document by October 12, 2007, to
                  aware of the availability of multiyear       communicate this change to program and project
                  funding for non-Modernization systems        managers. Status: Closed October 15, 2007.
                  development, to further enable the use
                  of firm fixed-price contracting.

                  Recommendation: The CIO and the              The IRS stated it agreed with, and has already
                  Chief, Agency-Wide Shared Services,          implemented, the recommendation to ensure
                  should ensure smaller, low-risk projects     smaller, low-risk projects are not overburdened by
                  are not overburdened by excessive            excessive internal controls by establishing criteria
                  internal controls by establishing criteria   for applying Modernization contract negotiation and
                  (e.g., cost, risk, dependencies) for         management practices to non-Modernization
                  applying Modernization contract              systems development activities. With this
                  negotiation and management practices         corrective action, the IRS addressed all aspects of
                  to non-Modernization systems                 the second part of this recommendation. For
                  development activities.                      instance, the IRS stated that interim guidance on the
                                                               Enterprise Life Cycle, signed by the CIO and dated
                                                               May 15, 2007, establishes that the full Enterprise
                                                               Life Cycle will supersede the Enterprise Life Cycle-
                                                               Lite. Status: Closed August 23, 2007.




                                                                                                          Page 40
                                        Annual Assessment of the
                                 Business Systems Modernization Program




Report and Date       Finding and Recommendation                               Corrective Action

The Customer       Finding: CADE Release 2.1 accurately        No corrective actions were required because the
 Account Data      posted tax return information to            report did not make any recommendations.
Engine Release     taxpayer accounts, and it contained
 2.1 Generally     significant additional functionality over
   Posted Tax      prior releases, including the ability to
    Return         post tax returns with the Head of
  Information      Household filing status and the most
   Accurately      common tax schedules. In addition,
                   name and address changes were posted
  2007-40-131      accurately, and a previously reported
                   condition related to long addresses
August 10, 2007    being cut off was corrected. Also, the
                   process used to determine the audit
                   potential of returns posting to the
                   CADE was adequately tested.

                   Recommendation: No
                   recommendations were made.

  The Account      Finding: The initial releases of the        No corrective actions were required because the
 Management        Account Management Services project         report did not make any recommendations.
Services Project   were adequately incorporating
 Is Meeting Its    prescribed project management
 Development       processes and were on schedule to
     Goals         deliver essential release components
                   and support the CADE capabilities.
  2008-20-053      The Account Management Services
                   project team followed Enterprise Life
 March 3, 2008     Cycle guidelines, developed required
                   deliverables and work products, and
                   timely completed the detailed project
                   release designs. In addition, the
                   project team actively documented and
                   resolved risks and issues identified as
                   having the potential to negatively affect
                   the project schedule.

                   Recommendation: No
                   recommendations were made.




                                                                                                         Page 41
                                          Annual Assessment of the
                                   Business Systems Modernization Program




Report and Date         Finding and Recommendation                              Corrective Action

 Improvements to     Finding 1: After a new Modernized          The IRS stated it agreed with the recommendation
  the Modernized     e-File release is deployed, the IRS does   and will use the Wage and Investment Division
    e-File System    not perform error detection or trending    Submission Processing function’s Hot Topics
Will Help Provide    to identify systemic or processing         application, currently under development, to
Intended Benefits    problems with tax returns filed through    provide a mechanism for identifying, elevating, and
   to the Internal   the Modernized e-File system.              resolving issues. In addition, as the Submission
 Revenue Service                                                Processing function’s Hot Topics evolve, the IRS
   and Taxpayers     Recommendation: The Commissioner,          will determine how to gather and analyze the
                     Wage and Investment Division, should       information to develop trends. Status: Open. The
  2008-20-122        require the Director, Submission           planned due date is March 15, 2009.
                     Processing, and the Director, Electronic
 June 18, 2008       Tax Administration to develop a formal
                     process for identifying, reporting, and
                     resolving Modernized e-File system
                     application processing issues that
                     require subsequent tax return and
                     account adjustment activity.

                     Recommendation: The Commissioner,          The IRS stated it agreed with the recommendation
                     Wage and Investment Division, should       for U.S. Return of Partnership Income (Form 1065)
                     require the Director, Submission           and U.S. Corporation Income Tax Return
                     Processing, and the Director, Electronic   (Form 1120) and has implemented the proposed
                     Tax Administration, to perfect the         validation controls. The IRS proposed not
                     validation control to verify taxpayers     implementing the validation control for U.S. Income
                     file the correct tax form based on their   Tax Return for an S Corporation (Form 1120S) due
                     established filing election. After         to process and system limitations. Status: Closed
                     perfecting the control, they should        January 1, 2008.
                     notify the Modernized e-File Project
                     team to implement the validation in
                     processing tax returns through the
                     Modernized e-File system.




                                                                                                          Page 42
                                          Annual Assessment of the
                                   Business Systems Modernization Program




 Report and Date         Finding and Recommendation                            Corrective Action
                     Finding 2: The Modernized e-File
                                                               The IRS stated it agreed with this recommendation.
                     System is not being used to the extent
                                                               The Small Business/Self-Employed Division
                     originally planned and the intended
                                                               submitted and prioritized the Enterprise Return
                     benefits to the business operating
                                                               Retrieval project’s Release 1 investment proposal as
                     divisions are not being achieved.
                                                               part of the Fiscal Year 2010 Information
                                                               Technology Modernization Vision and Strategy.
                     Recommendation: The Deputy
                                                               The Small Business/Self-Employed Division will
                     Commissioner for Operations Support
                                                               also submit future releases of the Enterprise Return
                     and the Deputy Commissioner for
                                                               Retrieval project as investment proposals for
                     Services and Enforcement should
                                                               corresponding Information Technology
                     ensure the business operating divisions
                                                               Modernization Vision and Strategy cycles. The
                     and the Modernization and Information
                                                               Small Business/Self-Employed Division is
                     Technology Services organization
                                                               developing the Technology and Data Integration
                     coordinate the capabilities of the
                                                               Plan, which will communicate the approach for
                     Technology and Data Integration Plan
                                                               using technology to achieve the Small
                     initiative and the Enterprise Return
                                                               Business/Self-Employed Division’s business
                     Retrieval system into the Information
                                                               objectives and supporting organizational priorities.
                     Technology Modernization Vision and
                                                               The Plan is not an enterprise plan, but the Small
                     Strategy.
                                                               Business/Self-Employed Division will use it to
                                                               collaborate with other business operating divisions
                                                               and, where possible, maximize the application of
                                                               technological initiatives. Status: Open. The
                                                               planned due date is December 1, 2008.

Source: TIGTA audit reports issued from July 2007 through April 2008.




                                                                                                         Page 43
                                       Annual Assessment of the
                                Business Systems Modernization Program



                                                                                  Appendix IX

                                 Glossary of Terms

             Term                                            Definition
Account Management Services This project will modernize the capability to collect, view,
                            retrieve, and manage taxpayer information.
Best Practice                      A technique or methodology that, through experience and
                                   research, has proven to reliably lead to a desired result.
Business Rule                      A statement that defines or constrains some aspect of the
                                   business.
Business Rules Harvesting          A general term used to broadly describe the entire set of
                                   activities involved in gathering, formalizing, analyzing, and
                                   validating business rules for a particular scope.
Customer Account Data              The foundation for managing taxpayer accounts in the IRS
Engine                             modernization plan. It will consist of databases and related
                                   applications that will replace the existing IRS Master File
                                   processing systems and will include applications for daily
                                   posting, settlement, maintenance, refund processing, and issue
                                   detection for taxpayer tax account and return data.
Deferral                           An approved request for verification of a requirement or set of
                                   requirements to be moved to another phase of testing.
Electronic Fraud Detection         The primary information system used to support the IRS
System                             Criminal Investigation Division’s Questionable Refund
                                   Program, which is a nationwide program established in
                                   January 1997 to detect and stop fraudulent and fictitious
                                   claims for refunds on income tax returns.
Enterprise Computing Center        Supports tax processing and information management through
                                   a data processing and telecommunications infrastructure.
Enterprise Integration, Test,      Processes for integrating multiple components of a solution
and Evaluation                     and conducting various types and levels of testing on the
                                   solution.



                                                                                           Page 44
                                  Annual Assessment of the
                           Business Systems Modernization Program




              Term                                       Definition
Enterprise Life Cycle          A structured business systems development method that
                               requires the preparation of specific work products during
                               different phases of the development process.
Executive Steering Committee   Oversees investments, including validating major investment
                               business requirements and ensuring that enabling technologies
                               are defined, developed, and implemented.
Filing and Payment             This project will provide support for detecting, scoring, and
Compliance                     working nonfiler cases (filing compliance) and delinquency
                               cases (payment compliance).
Filing Season                  The period from January through mid-April when most
                               individual income tax returns are filed.
Firm Fixed-Price Task Order    A contract with a set price that is not subject to any
                               adjustment because of cost overruns incurred by the
                               contractor.
Forms 1040, 1040EZ, and        The series of IRS forms that include individual income tax
1040A                          returns.
Information Technology         A 5-year plan that drives investment decisions, addresses the
Modernization Vision and       priorities around modernizing front-line tax administration
Strategy                       and supporting technical capabilities, and leverages existing
                               systems (where possible) and new development (where
                               necessary) to optimize capacity, manage program costs, and
                               deliver business value on a more incremental and frequent
                               basis.
Infrastructure                 The fundamental structure of a system or organization. The
                               basic, fundamental architecture of any system (electronic,
                               mechanical, social, political, etc.) determines how it functions
                               and how flexible it is to meet future requirements.
Logical Design                 Describes the functions required of a system; that is, what is
                               to be done, not how it will be done. Logical design is
                               concerned with the processes to be performed.
Master File                    The IRS database that stores various types of taxpayer
                               account information. This database includes individual,
                               business, and employee plans and exempt organizations data.


                                                                                        Page 45
                                  Annual Assessment of the
                           Business Systems Modernization Program




             Term                                       Definition
Milestone                     The “go/no-go” decision point in a project and is sometimes
                              associated with funding approval to proceed.
Modernized e-File             The modernized, web-based platform for filing approximately
                              330 IRS forms electronically, beginning with the
                              U.S. Corporation Income Tax Return (Form 1120),
                              U.S. Income Tax Return for an S Corporation (Form 1120S),
                              and Return of Organization Exempt From Income Tax
                              (Form 990).
PRIME Contractor              The Computer Sciences Corporation, which heads an alliance
                              of leading technology companies brought together to assist
                              with the IRS’ efforts to modernize its computer systems and
                              related information technology.
Release                       A specific edition of software.
Requirement Traceability      Provides the status of how each requirement is being satisfied
Verification Matrix           as it gets designed and implemented, as well as how the test
                              components are developed, to verify the successful operation
                              of each requirement.
Return on Investment          The net profit or loss in an accounting period divided by the
                              capital investment used during the period, usually expressed
                              as an annual percentage return.
Systems Requirements Report   Documents a feasible, quantified, verifiable set of
                              requirements that define and scope the business system being
                              developed by a project.
Task Order                    An order for services placed against an established contract.
Transition Management         Helps ensure that personnel and organizations are prepared to
                              receive, use, operate, and maintain the business processes and
                              technology provided by business change solutions.
Vision and Strategy           Translates the fundamental business strategy into a
                              transformation strategy for business processes, information
                              technology, and organizational change.




                                                                                      Page 46
                 Annual Assessment of the
          Business Systems Modernization Program



                                               Appendix X

Management’s Response to the Draft Report




                                                    Page 47
       Annual Assessment of the
Business Systems Modernization Program




                                         Page 48
